      ADVISORY REPORT

    COSTS CLAIMED BY THE
      U.S. VIRGIN ISLANDS,
  DEPARTMENT OF PLANNING
  AND NATURAL RESOURCES,
     DIVISION OF FISH AND
 WILDLIFE, UNDER FEDERAL AID
  GRANTS FROM THE U.S. FISH
 AND WILDLIFE SERVICE FROM
   OCTOBER 1, 1996 THROUGH
      SEPTEMBER 30, 1998




OCTOBER 2002   Report No. 2003-E-0001
                                                                          X-GR-FWS-0001-2003
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                                                                                  October 7, 2002


                                ADVISORY REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the U.S. Virgin Islands, Department of
           Planning and Natural Resources, Division of Fish and Wildlife, Under Federal Aid
           Grants from the U.S. Fish and Wildlife Service from October 1, 1996 through
           September 30, 1998 (No. 2003-E-0001)

                                        Introduction
        This report presents the results of our performance of procedures to review another audit
agency’s work related to costs claimed by the U.S. Virgin Islands, Department of Planning and
Natural Resources (Department), Division of Fish and Wildlife (Division) under Federal Aid
grants from the U.S. Fish and Wildlife Service (FWS) for the period from October 1, 1996 to
September 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. § 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. § 777) (the Acts) authorize
FWS to cooperate with the Governor of the U.S. Virgin Islands to provide Federal Aid grants to
the U.S. Virgin Islands to enhance its sport fish and wildlife programs. The Acts provide that
FWS cannot require the Virgin Islands to pay an amount which will exceed 25 percent of the
costs of any project. Additionally, the Acts specify that hunting and fishing license revenues
cannot to be used for any purpose other than the administration of the Virgin Island’s fish and
game agency, which is the Division of Fish and Wildlife. In addition, FWS provides grants to
the Division under the Clean Vessel Act and the Endangered Species Act.
        In February 2001, another audit agency issued a preliminary draft report entitled “Audit
of Virgin Islands Federal Aid Program Grants and Payments Awarded by the U.S. Fish and
Wildlife Service, Division of Federal Aid, Fiscal Years 1997 and 1998.” The scope of its audit
work, as stated in the announcement letter to the Department, was to evaluate (1) the adequacy of
the Division of Fish and Wildlife’s purchasing system and related internal controls as they
pertain to the FWS Federal Aid program; (2) the adequacy and reliability of the accounting
system as it relates to the accumulation, billing and reporting of grant costs; and (3) the accuracy
and eligibility of direct costs claimed on grants during the audit period. The audit was also to
include an analysis of other issues considered to be sensitive and/or significant to the FWS. The
audit work at the Division covered $1.9 million in FWS grants that were open during its fiscal
years ended September 30, 1997 and 1998 (see Appendix 1). The Department submitted its
response to the draft report in May 2001. However, the audit agency’s agreement with FWS
expired prior to the issuance of a final report.

        From 1996 through September 2001, the audit agency conducted audits of Federal Aid
grants under a reimbursable agreement with FWS. The FWS did not renew or extend its
agreement with the audit agency. At the time of expiration, final audit reports on several
uncompleted audits had not been issued and the audits were in various stages of the audit and
reporting processes. The audit agency indicated in a September 28, 2001 memorandum that
although the supervisory and management reviews of the Virgin Islands draft report had been
completed, the audit assignment was considered incomplete because the supervisory and
management reviews of the final report and supporting working papers had not been completed.

        On September 20, 2001, FWS and the Office of Inspector General (OIG) entered into an
Intra-Departmental Agreement under which FWS requested OIG to (1) review the audit work
performed by the audit agency including its working papers, summaries, and draft reports for
these audits and (2) issue reports on the findings that were supported by the working papers.
Accordingly, our review was limited to performing the agreed-upon procedures set forth in the
Agreement and the conclusions presented in the report are limited to the findings substantiated
by the working papers. We did not perform any additional audit work of the Division’s records
and the limited work performed under these agreed-upon procedures does not constitute an audit
by the OIG in accordance with Generally Accepted Government Auditing Standards.

       Major issues impacting the Virgin Islands’ administration of the Federal Aid program are
presented in the body of the report and other management issues are presented in Appendix 2. In
addition, we have included in Appendix 3 a list of all findings included in the draft report, along
with the results of our own corresponding analysis.




                                                 2
                                    Results of Review
       The results of our review of the audit agency’s working papers disclosed the following:

   •   The eligibility for reimbursement of costs totaling $212,322 was questioned. The
       questioned costs consisted of costs billed for hunter education ($105,273) even though
       there is no hunting program in the Virgin Islands, for a waste pump out service for boats
       ($88,640) that was not provided, for costs incurred outside of approved grant periods
       ($17,701), and for a duplicate claim for an unused portion of a travel advance ($708).

   •   The Division’s accounting system was not being reconciled with the Virgin Islands’
       official accounting system, which increases the risk for errors in accumulating and
       claiming costs for reimbursement.

   •   The Division’s property management system did not adequately identify, record, and
       safeguard equipment purchased under Federal Aid grants.

   •   The Virgin Islands did not have legislation that assented to the provisions of the Sport
       Fish Restoration Act.

A. Questioned Costs
       The working papers identified questioned costs of $212,322 pertaining to ineligible costs
claimed for hunter education ($105,273), a waste pump out service ($88,640), activities
conducted outside of approved grant periods ($17,701), and for an unused portion of a travel
advance claimed twice as a cost ($708).

        1. Hunter Education. Costs of $105,273 were questioned because the Department used
hunter education funds for environmental issues. Such use is contrary to provisions of the
Federal Aid in Wildlife Restoration Act, the Code of Federal Regulations, and Federal Aid
Manual. The Act states that each grantee may use the funds apportioned to it to pay for the costs
of a hunter safety program and the construction, operation, and maintenance of public target
ranges as a part of such program; the Code [50 CFR § 80.5(a)(2)] requires that education projects
must have as their purpose the education of hunters and archers; and the Manual [Part 522 FW
13.2 (A)] states that hunter education projects must have as their purpose the education of
hunters to develop the skills, knowledge, and attitudes necessary to be responsible hunters.
However, hunter education grants FW-6-10 and FW-6-11 provided funding for environmental
issues in the Virgin Islands. The funds were used to pay staff and develop and print posters of
various birds. According to the education manager, the Virgin Islands had no formal hunter
education program.

        Both the FWS and the Department acknowledged that these grants were to be funded
with hunter education and aquatic education funds. The grant proposal for grant FW-6-11
identified the following as its objectives: familiarity and respect for the environment by Virgin
Islanders; the protection, preservation, and restoration of natural ecosystems while increasing
public access; and the exposure of school children to fish and wildlife resources, habitats, and


                                                 3
environmental issues. The titles of the grants were “Environmental Issues in the V.I.” The law
and regulations governing the use of aquatic education funds allow for this kind of program to be
funded but not the law and regulations governing the use of hunter education funds.
Accordingly, the percentage share of costs associated with hunter education incurred under these
two grants was questioned, as shown in the following schedule:


                                  Hunter
                                 Education
            Grant                Portion of         Amount       Amount
           Number       Year    Grant Budget        Claimed     Questioned      Note
           FW-6-10      1997        $73,393         $61,484      $61,484         (1)
           FW-6-11      1998        $48,068         $43,789      $43,789         (2)
                        Total                                   $105,273

         Notes:

        (1) The Division prepared a Financial Status Report, SF-269, for grant
            FW-6-10 using the allocation percentage (63 percent hunter education)
            contained in the grant agreement for the hunter education portion of the
            costs incurred. The Division applied the 63 percent to the total costs
            recorded ($97,593) to calculate the $61,484 claimed.

        (2) The Division did not prepare an SF-269 that identified the hunter education
            portion of costs incurred for grant FW-6-11 separately from the aquatic
            education costs. Based on the 40 percent estimate of hunter education costs
            to total costs contained in the grant agreement, the auditors calculated
            $43,789 as the hunter education share of the total claim by applying the
            40 percent contained in the grant agreement to the total costs recorded
            ($109,473).

Department’s Response

        The Department stated that the program was discussed extensively with Federal Aid staff,
it was developed with their consent, the Assistant Regional Director approved the grants, and the
grants clearly indicated that hunter education funds would be used for these activities.
Additionally, the Department stated that once it was made aware that hunter education funds
could not be used for wildlife environmental education, the Division stopped using hunter
education funds for the environmental education program.

Office of Inspector General Comments

       FWS should determine whether this situation represented an appropriate use of hunter
education funds and inform all of its regions of its decision.



                                                4
Recommendation

       We recommend that the FWS resolve the $105,273 in questioned costs.

        2. Waste Pump Out Service. Under grant V-3-1, the Department agreed to fund the
construction and operation of a boat that would provide a waste pump out service for boats in the
mooring fields of St. Thomas and St. John during the period from October 1, 1997 to December
31, 1998. To carry out the provisions of the grant, the Department entered into a 5-year
Memorandum of Agreement with the University of the Virgin Islands (UVI) and advanced
$84,000 to UVI. The UVI submitted bills to the Department for $62,391 consisting of $62,219
paid to Universal Environmental Systems to provide the service and $172 for travel. All costs
were incurred after the end of the grant period. In addition, the Department reported that it
incurred costs of $4,640, thus making the total costs incurred under the grant $67,031. The
working papers did not identify any other recorded costs even though $88,640 was claimed for
reimbursement.

        UVI agreed to provide monthly reports that identified the areas serviced, the number of
boats serviced, the total amount of sewage pumped out, and where the recovered sewage was
placed. Even though most of the $90,000 grant has been spent, there is no indication that this
service has been implemented in the Virgin Islands. Accordingly, claimed costs of $88,640 were
questioned.

Department’s Response

      The Department stated that if it is determined that funds should be returned to the FWS, it
would do so immediately.

Office of Inspector General Comments

       None.

Recommendation

       We recommend that the FWS resolve the $88,640 in questioned costs.

        3. Out of Period. The Department claimed out-of-period costs for a retroactive pay
raise ($14,435) and for obligations that were liquidated well after the closure of the grants
($3,266).

        The Department claimed and was reimbursed for a retroactive pay increase for the
Division Director that covered the period from January 19, 1995 through September 30, 1997.
The costs were claimed, however, under grants that did not begin until October 1, 1996. Office
of Management and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, Attachment A, Part C, states that to be allowable, costs must conform to any
limitations or exclusions set forth in Federal laws and terms and conditions of the Federal award.
The Federal Aid agreements identify specific grant periods.



                                                5
       The Senior Resources Ecologist acted as the Director of the Division of Fish and Wildlife
from January 19, 1995 to September 30, 1997. In September 1997, a retroactive pay increase
was approved to compensate the individual for the time spent as the acting Director. The pay
increase was charged to several grants that began on or after October 1, 1996. The retroactive
pay increase was $3.37 per hour for 5,624 hours worked during the period from January 19, 1995
through September 30, 1997. The working papers estimated that 2,080 hours of the 5,624 hours
were attributable to the period from October 1, 1996 through September 30, 1997 and would be
allowable under the grants from which the costs were claimed. However, the remaining 3,544
hours related to periods prior to the grant periods to which the pay increase was charged.

       The working papers calculated the questioned labor costs by applying the proportion of
the pay relating to prior periods to the amounts charged to each grant with the following results:

               Grant           Period of             Amount          Amount
               Number         Performance            Claimed        Questioned

               F-7-12         10/1/96-9/30/97        $      471     $      297
               F-8-6          10/1/96-9/30/97               189            119
               F-9-7           3/1/97-2/28/99               943            594
               FW-14-5        10/1/96-9/30/97            19,241         12,125
               FW-15-5        10/1/96-9/30/97             1,603          1,010
               E-1-13         10/1/96-9/30/97               461            290

               Totals                                $ 22,908       $14,435

        On grants E-1-14 and FW-14-6, the Department claimed costs after the grants’ close out
periods. According to the Code of Federal Regulations [43 CFR § 12.63 (b)], “A grantee must
liquidate all obligations incurred under the award not later than 90 days after the end of the
funding period…The Federal agency may extend the deadline at the request of the grantee.”
Under grant E-1-14, the Department incurred costs of $21,000 to obtain data on Leatherback,
Green and Hawksbill turtles. The final payment of $1,000 was made on March 21, 2000, well
after the December 29, 1998 end of the funding period and without a request for a time
extension. Therefore, these costs were questioned as out-of-period costs. Under grant FW-14-6,
the Department made a final payment of $2,266 for a computer on or after February 25, 1999.
This payment was after the December 29, 1998 end of the funding period and also without a
request for a time extension. Obligations paid through December 29, 1998 would be accepted
within the typical 90-day closing process permitted under the Code of Federal Regulations
[43 CFR § 12.63 (b), Period of availability of funds], but this payment was made well beyond the
grant’s period of performance plus the 90-day close out period.

Department’s Response

       Regarding the retroactive pay raise, the Department stated that it viewed the charge as an
appropriate personnel charge for the period and although the raise was not approved until
September 1997, the decision to honor this cost was ongoing since 1995. Regarding the $1,000



                                                 6
out-of-period costs, the Department said that the $21,000 was encumbered on March 20, 1998,
and the final invoice was submitted for payment on November 1, 1998. Payments as of
December 1998 totaled $20,000, leaving an unencumbered balance of $1,000. In March 2000,
the subcontractor wrote to the Department to inform it that “they had neglected to bill….for
$1,000.” Because an unliquidated obligation existed, the final billing was honored and paid.
The Department did not respond to the remaining out-of-period questioned costs of $2,266.

Office of Inspector General Comments

       The Department’s response acknowledged that the costs were incurred outside the grant
periods but did not contain sufficient information to justify an exception.

Recommendations

       We recommend that the FWS:

       1. Resolve the retroactive pay adjustment questioned costs of $14,435.

       2. Resolve the out-of-period questioned costs of $3,266.

        4. Duplicate Claim. Under grant FW-14-6, the Department claimed $354 of travel costs
twice. An employee received a travel advance of $1,169 for the estimated costs of attending a
workshop that was charged to the grant. When the employee prepared the travel voucher, it
identified $815 in travel expenses and $354 due the Department. The Department should have
credited the $354 on its expenditure report for grant FW-14-6, but instead it erroneously charged
the amount to the grant, resulting in a duplicate claim of $354 for which no costs were incurred.
Thus, the grant was overcharged by $708.

Department’s Response

       The Department did not respond to this finding.

Office of Inspector General Comments

       None.

Recommendation

       We recommend that the FWS resolve the questioned costs of $708.

B. Accounting System
        The Division used a Lotus Spreadsheet-based accounting subsystem for the accumulation
and reporting of costs on Federal Aid grants during fiscal years 1997 and 1998. The subsystem
was used to collect, bill and report on grant costs by cost element and by grant. The working
papers indicated that during the audit agency’s testing of transactions, individual expense items


                                                7
were traced from the subsystem to the official accounting system maintained by the Department
of Finance and to originating source documentation. However, the Department had no
reconciliations to the official accounting system to identify differences between the two systems.
In that regard, the working papers identified one grant for which the subsystem reported total
costs as $109,473 for fiscal year 1998 and the official accounting system reported total costs as
$144,523.

        In addition, the working papers noted that the Division posts purchase orders to the sub-
system as expenses based on the cost estimates contained in the purchase orders. This practice
increases the risk of recording inaccurate purchase amounts because the subsequent invoiced
amount may be different due to a change in pricing or in the number of items shipped, or because
of the substitution of another kind of item for the one that was ordered. The working papers
disclosed that the differences were tracked manually with no formal process in place to ensure
that proper adjustments were made to the sub-system. The working papers also noted that the
sub-system did not provide actual cost information in the same level of detail as presented in
approved grant documents.

       The draft report recommended that the FWS require the Department to reconcile and
maintain records of its reconciliations of its Lotus-based accounting subsystem to the official
Department of Finance accounting records on a monthly basis.

Department’s Response

        The Department stated that it “contends that the accounting system in place during the
audit period FY 1997 and 1998 more than adequately meets the criteria of the generally accepted
accounting principles (GAAP) and is in accordance with the Territory of the Virgin Islands’ rules
and regulations.” It also stated that the accounting system meets the requirements of the
“Common Rule” (43 CFR § 12.60), and that the system is reconcilable with cost ledgers
produced by the Department of Finance. The Department’s response also explained the posting
methods, which result in some of the timing differences discussed above. Regarding the level of
accounting, the Department stated that the Division “has not been required by Federal Aid to
provide accounting for projects at the job level,” and that it accounts for costs at the grant level.

Office of Inspector General Comments

         The Department stated that the sub-system is reconcilable to the official accounting
system, but it did not furnish any support for its position. The working papers indicate that
reconciliation was requested but not provided during the site work. The Department also stated
that postings are controlled and adjustments are made prior to payment. However, no support for
its statement was included with the reply. During the audit, one instance was found where a
proper adjustment was not made. Regarding the level of accounting detail, FWS must determine
how much cost information it needs from the Department to monitor grant activity.




                                                 8
Recommendations

       We recommend that the FWS:

          1. Require the Division to reconcile its sub-system to the Department of Finance
   records on a monthly basis.


          2. Advise the Division to post purchase orders to an encumbrance, obligations,
   undelivered orders, accounts payable or some other type of intermediate account instead of
   posting directly to expenses in the sub-system upon receipt of a purchase order.

         3. Advise the Division as to what level of accounting it must record grant
   expenditures to satisfy FWS oversight responsibility.

C. Property Management
       The Division’s property management system did not adequately identify, record, and
safeguard equipment purchased under Federal Aid grants. Specifically, the property listings
maintained by the Division’s field offices did not separately identify equipment that was
purchased with Federal Aid funds, equipment was not tagged with a control number to identify it
as Federal Aid-acquired assets, and an inventory of assets purchased with Federal Aid had not
been independently conducted.

        The Code of Federal Regulations [43 CFR § 12.72(b)], Equipment, requires states (which
includes insular areas) to use, manage, and dispose of equipment acquired under a grant in
accordance with state laws and procedures. However, the working papers show that the Division
had not provided any written policies and procedures for the use, management, and disposal of
equipment. An adequate system for managing property acquired with Federal assistance should
at a minimum include property records that contain a property description, identification number,
acquisition date, cost, and source of the property; location, use, and condition of the property;
and disposition data. The system should also provide for periodic physical inventories and
reconciliations to the property records.

       The draft report recommended that the Division prepare written policies and procedures
to ensure adequate internal controls over property as described above. In addition, it
recommended that all property be properly tagged for identification to the Federal Aid program
and that the property be identified to the grant under which it was acquired.

Department’s Response

        The Department agreed that there were deficiencies in its asset management in some
areas such as monitoring inventory. It also said that there was an annual inventory, but that
inventory “is not always reconciled with the DPNR’s Property Manager’s inventory.” The
Department added that this process had been improved for fiscal years 1999 and 2000 and it
included an inventory list in its response.


                                                9
Office of Inspector General Comments

        Although the Department’s response indicated there were some improvements, it did not
agree to implement an adequate property management system.

Recommendation

       We recommend that the FWS require the Division to implement a property management
system that adequately controls equipment purchased with Federal Aid funds.

D. Assent Legislation
        The Virgin Islands had implemented assent legislation related to the Wildlife Restoration
Act, which was adequate; however, it had not implemented legislation that assented to the
provisions of the Sport Fish Restoration Act. According to the Code of Federal Regulations (50
CFR § 80.3, Assent legislation), a state may participate in the benefits of the Act(s) only after it
has passed legislation that assents to the provisions of the Act. In the absence of proper assent
legislation, the Virgin Islands would be ineligible to participate in the sport fish program of the
FWS and to receive its apportionment of funds under the Sport Fish Restoration Act.

       The draft report recommended that the FWS take immediate action to ensure that the
Virgin Islands implements complete and adequate assent legislation.

Department’s Response

       The Department’s response included draft sport fish assent legislation that it claimed had
been submitted to the Department’s Commissioner for review and processing.

Office of Inspector General Comments

        The draft legislation appeared adequate, but it was dated October 2000 and had not been
finalized.

Recommendation

       We recommend that the FWS require the Division to enact the required legislation to
ensure continued participation in the sport fish restoration program.

         In accordance with the Departmental Manual, (360 DM 5.3), please provide us with your
written comments by January 10, 2003 regarding the questioned costs and other issues discussed
in this report. Copies of documentation related to the final disposition of the questioned costs and
other issues should be provided with your response. If you have any questions regarding this
report, please contact Mr. Gary Dail, Federal Assistance Audit Coordinator, at 703-487-8011.




                                                 10
        This advisory report is intended solely for the use of grant officials of the U.S Fish and
Wildlife Service, and is not intended for, and should not be used by anyone who is not cognizant
of the procedures that were applied and who agreed to the sufficiency of those procedures.


cc: Regional Director, Region 2
      U.S. Fish and Wildlife Service




                                                11
                                                               APPENDIX 1

               U. S. VIRGIN ISLANDS
DEPARTMENT OF PLANNING AND NATURAL RESOURCES
        DIVISION OF FISH AND WILDLIFE
  SCHEDULE OF CLAIMED AND QUESTIONED COSTS
   OCTOBER 1, 1996, THROUGH SEPTEMBER 30, 1998


      Grant Agreement   Amount Claimed      Costs Questioned
    Fiscal Year 1997:

    FW-14-5                      $380,058          $ 12,125
    FW-15-5                        77,831             1,010
    FW-6-10                        97,593            61,484
    W-11-1                         16,239
    W-12-1                         14,653
    W-5-12                         22,987
    W-7-6                          12,146
    W-10-4                         15,265
    F-10-6                         57,987
    F-7-12                         80,568               297
    F-8-6                          63,763               119
    F-9-7                          13,230               594
    E-1-13                         37,866               290
    V-3-1                               0

    Fiscal Year 1998:
    FW-14-6                      443,758               2,974
    FW-15-6                       78,952
    FW-6-11                      109,473              43,789
    W-11-2                        21,078
    W-12-2                        17,264
    W-5-13                        27,248
    W-7-8                         10,380
    F-10-7                        55,307
    F-7-13                        84,828
    F-8-7                         72,504
    F-9-7                          3,432
    E-1-14                        44,734              1,000
    V-3-1                         88,640             88,640
    Totals                    $1,947,784           $212,322




                            12
                                                                                 APPENDIX 2
                                                                                   Page 1 of 2

                               MANAGEMENT ISSUES

A. Labor Reporting System

       Field interviews disclosed that employees did not typically record hours worked by
grant on their labor distribution timesheets until the end of the biweekly payroll period.
Additionally, employees did not maintain formal, standardized logbooks to help ensure the
accuracy of hours recorded when the timesheets were completed. A reconciliation by
individual was performed by the Division each pay period between the Lotus-based labor
sub-system maintained by the Division and the official payroll record maintained by the
Department of Finance, but the record of the reconciliation was not kept, and the total payroll
amounts for each system for each pay period were not reconciled.

        The draft report recommended that the Division issue written timekeeping procedures
which include the requirement for daily input of hours by grant. At a minimum, the Division
should consider developing and maintaining a standardized activity logbook to support the
recorded labor effort by grant. In addition, the procedures should address the completion and
submission requirements of the labor distribution timesheets, proper methods of making
corrections, and the requirement to record hours based on actual labor effort versus budgeted
amounts. The draft report also recommended that the Division develop and document a
process to reconcile the total labor costs per its Lotus-based subsystem to official Virgin
Island payroll records to ensure the accuracy of the recorded and billed labor amounts.

         The Department agreed that employees should record time to grants on a daily basis.
It also referred to memorandums attached to its response to show some measures that it had
taken. The memorandums, however, were not included with its response.

        The Department’s response did not address the audit recommendations regarding the
need for general timekeeping procedures. Further, the Department did not address the issue
of reconciliation of the Division’s payroll to the official payroll records. As we stated above,
a reconciliation by individual was performed by the Department but not documented, and the
total payroll amount could not be directly reconciled to the Department of Finance’s records.
Although the Department agreed with the need to record time daily, the referenced
memorandums were not included with their response. Therefore, we believe the Department
should provide the memorandums to the FWS for its consideration.

B. Grant Reporting
       The working papers disclosed that the Department generally did not submit its final
Financial Status Reports, SF 269s, in a timely manner. In accordance with the Code of
Federal Regulations [43 CFR § 12.81 (b) (4)], final reports are due 90 days after the
termination of the grants. Most of the SF-269(s) for fiscal year 1997 were dated either on


                                              13
                                                                                 APPENDIX 2
                                                                                   Page 2 of 2

                               MANAGEMENT ISSUES

January 20, 1998 or February 2, 1998, more than 90 days after the end of the grant period
which was September 30, 1997. Furthermore, the Department did not request an extension
for filing.

        The draft report recommended that the Department implement a procedure to ensure
that Financial Status Reports are submitted in a timely manner. It also recommended that
extension requests be submitted if the Financial Status Reports could not be submitted within
the required time.

       The Department’s response agreed that in the past, some required Financial Status
Reports had not been filed timely. The response stated that a policy to improve the timely
submission of these reports had been implemented; however, a copy of the policy was not
provided.

       Although the issuance of a policy to improve the timely submission of the Financial
Status Reports is a good step, the FWS should follow up on this issue to determine if the
policy has resulted in the Department’s timely filing of the Financial Status Reports.

C. Federal Signs
        The Code of Federal Regulations (50 CFR § 80.26) and the Federal Aid Handbook
(Part 522 FW 7.9) require that Federal Aid projects be marked with appropriate signs,
directional markers, or maps to inform the public. The working papers indicated that the
required signs were found at most wildlife sites, but signs were not posted at fishery locations
and boat ramps as follows:


       Boat ramps on St. Thomas and St. Croix
       Hull Bay Boat Ramp
       Fishery areas consisting mostly of marshlands, salt ponds, back bays and reefs on St.
       Thomas and St. Croix


        The draft report recommended that the Division implement a process to ensure
appropriate signs are properly posted and maintained at all project sites. In its response, the
Department stated that signs would be posted appropriately at sites funded by sport fish
restoration funds. The FWS should verify that the appropriate signs have been placed at
sport fish funded sites.




                                               14
                                                                                                                             APPENDIX 3
                                                                                                                               Page 1 of 2

                  CROSSWALK OF FINDINGS FROM THE DRAFT TO THE FINAL REPORT

Findings Contained in the February 2001 Preliminary Draft Report        Results of the OIG Review
QUANTIFIABLE ISSUES
1. Hunter Education (Grants FW-6-10 and FW-6-11).
                                                                        Included in this report as Finding A.
2. Clean Vessel (Grant V-3-1).
                                                                        Included in this report as Finding A.
3. Out of Period Labor.
                                                                        Included in this report as Finding A.
4. Additional Questioned Costs.
                                                                        Included in this report as Finding A.
COMPLIANCE ISSUES
1. Accounting System.
                                                                        Included in this report as Finding B.
2. Purchasing System.
                                                                        Excluded from this report because the cited Federal requirements
                                                                        cannot be imposed on states, including the Virgin Islands.
3. Asset Management.
                                                                        Included in this report as Finding C.
4. Labor Reporting System.
                                                                        Included in this report in Appendix 2 as Management Issue A.
5. License Certifications.
                                                                        Excluded from this report because not enough evidence existed to
                                                                        report on this issue.
6. Draw Downs (Billing System).
                                                                        Excluded from this report because not enough evidence existed to
                                                                        report on this issue.




                                                                   15
                                                                                                                              APPENDIX 3
                                                                                                                                Page 2 of 2

                     CROSSWALK OF FINDINGS FROM THE DRAFT TO THE FINAL REPORT

Findings Contained in the February 2001 Preliminary   Results of the OIG Review
Draft Report
COMPLIANCE ISSUES - Continued
7. Source and Use of Funds.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
8. Assent Legislation.
                                                      Included in this report as Finding D.
9. In-Kind Contributions.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
10. Grant Reporting.
                                                      Included in this report in Appendix 2 as Management Issue B.
OTHER MATTERS TO BE REPORTED
1. Nuisance Animals.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
2. Project Development.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
3. Coordination Grant.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
4. Federal Aid Signs.
                                                      Included in this report in Appendix 2 as Management Issue C.
5. Sub-grant Monitoring.
                                                      Excluded from this report because not enough evidence existed to report on this issue.
6. Indirect Rates.
                                                      Excluded from this report because no positive or negative issue was reported.




                                                                 16
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
